IN THE SUPREME COURT OF THE UNITED STATES
Nos. 19-368 & 19-369
FORD MOTOR COMPANY,

Petitioner,

v.

et al.,
Respondents.

MONTANA EIGHTH JUDICIAL DISTRICT COURT,

FORD MOTOR COMPANY,

Petitioner,

v.
ADAM BANDEMER,

Respondent.

CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for amici curiae, hereby certify that on this 6th
day of March, 2020, I caused three copies of the Brief of the Chamber of Commerce
of the United States of America, the National Association of Manufacturers, and the
American Tort Reform Association as Amici Curiae in Support of Petitioner to be
served by overnight delivery on the following counsel:
Sean Marotta
Hogan Lovells US LLP
555 Thirteenth St., NW
Washington, D.C. 20004
sean.marotta@hoganlovells.com

Deepak Gupta
Gupta Wessler PLLC
1900 L Street, NW, Suite 312
Washington, D.C. 20036
deepak@guptawessler.com

Attorney for Petitioner

Attorney for Respondents

I further certify that all parties required to be served have been served.

Andrew J . Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

